No: 20-5069
IN THE
SUPREME COURT OF THE UNITED STATES

Pablo Enrique Rosado Sanchez
v.
Banco Santander Puerto Rico

- PETITIONER
- RESPONDENT

PROOF OF SERVICE
I, Pablo Enrique Rosado Sanchez, do swear declare that on this date,
October 28,2020, as required by Supreme Court Rule 29, I have served the enclosed motion
Sent to Supreme Court: Order denying (162) Motion to Substitute Party
Signed by US Magistrate Judge Bruce J. McGiverin, received by regular mail Oct. 28 2020
with Pablo Enrique Rosado Sanchez Motion with explanation: I sued Santander Bank only.
on each party to the above proceeding, or that party's counsel,
and on every other person required to be served, by depositing an envelope
containing the above documents in the United States Mail,
properly addressed to each of them, and with first class postage pre-paid,
or by delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served as as follows:
Erasmo Reyes Pena, Attorney
221 Plaza, Suite 802
221 Ave. Ponce de LeOn
San Juan PR, 00917-1804

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Wednesday, October 28, 2020.

o

eom-17'()I-14--

(Signature)

